Audit Report



Return
    to the USDOJ/OIG Home Page




Cooperative Agreement Administered by the Fund for the City of New York
New York, New York

Report No. GR-70-04-002


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the training and technical assistance cooperative agreement awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Fund for the City of New York (Fund).  The purpose of the agreement is to provide training and technical assistance to Drug Court Grant Program recipients and to the drug court field in general.  Between September 1998 and February 2002 the Fund was awarded a total of $1,839,269 to host roundtable forums, develop and conduct educational courses, create and distribute printed material and publications, develop an internet website, assist in developing drug court Management Information Systems, and conduct site visits at the Brooklyn Treatment Court.
We tested the Fund's accounting records to determine if reimbursement claimed for costs under the agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement.
The Fund generally complied with grant requirements.  We found that reimbursements claimed for costs incurred under the agreement were allowable, supported and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement.  However, the Fund did not submit all its Financial Status Reports and Progress Reports timely.  In addition, the Fund incorrectly budgeted certain costs related to compensated employee leave.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.